No. 21-10

In the Supreme Court of the United States
LORI BRAUN, AS ADMINISTRATRIX OF THE ESTATE OF
CASSANDRA BRAUN, DECEASED, INDIVIDUALLY AND ON
BEHALF OF ALL WRONGFUL DEATH BENEFICIARIES OF

CASSANDRA BRAUN,
Petitioner,
v.
BRIAN RAY BURKE, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Nicholas J. Bronni, counsel for Respondent Bill Bryant, hereby certify that on
this day, August 23, 2021, I caused one copy of the Brief in Opposition of Respondent
Bill Bryant to be served by United States Postal Service First-Class Mail on the following counsel:
Michael Aaron Avery
1219 Rockrose Road N.E.
Albuquerque, NM 87122
mavery@suffolk.edu
Counsel for Petitioner
Brian W. Ray
912 West 4th Street, Suite A
Little Rock, AR 72201
brian@ccrlawfirm.com
Counsel for Brian Ray Burke
I further certify that all parties required to be served have been served.

/S/ NICHOLAS J. BRONNI
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501) 682-8090
Nicholas.Bronni@arkansasag.gov

